 

 

    U.S. ENVIRONMENTAL PROTECTION AGENCY 

    OFFICE OF INSPECTOR GENERAL 
 

 



    EPA Should Improve
    Policies and Procedures to
    Ensure Effective DCAA
    Audit Report Resolution
    Report No. 12-P-0071               November 10, 2011
Report Contributors:                               Janet Kasper
                                                   Michael Petscavage
                                                   Doug LaTessa
                                                   David Penman
                                                   Brad Jones




Abbreviations

ACO           Administrative Contracting Officer
DCAA          Defense Contract Audit Agency
DCMA          Defense Contract Management Agency
EPA           U.S. Environmental Protection Agency
MATS          Management Audit Tracking System
OAM           Office of Acquisition Management
OCFO          Office of the Chief Financial Officer
OIG           Office of Inspector General
OMB           Office of Management and Budget




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                       U.S. Environmental Protection Agency 	                                              12-P-0071
                                                                                                    November 10, 2011
                       Office of Inspector General


                       At a Glance
Why We Did This Review             EPA Should Improve Policies and Procedures to 

                                   Ensure Effective DCAA Audit Report Resolution 

We conducted this audit to
determine whether the U.S.         What We Found
Environmental Protection
Agency (EPA) has adequate          EPA should improve its policies and procedures to ensure timely and accurate
controls for resolving Defense     tracking and reporting of the resolution of DCAA reports. When EPA is the
Contract Audit Agency              cognizant agency, i.e., responsible for resolving the audit recommendations, it is
(DCAA) audit reports, and          generally resolving DCAA reports within 6 months, as required by Office of
whether EPA is resolving           Management and Budget Circular A-50. However, EPA is not always:
DCAA audit reports timely.
                                       •	 Reporting the status of unresolved DCAA audits to the Administrator
Background
                                       •	 Accurately recording the management decision dates for DCAA reports,
                                          which are used to evaluate the timeliness of resolution and
DCAA performs contract
                                          implementation of corrective action
audit services for EPA.
Typical DCAA audit services            •	 Resolving DCAA reports within 6 months when EPA is not the cognizant
include incurred cost audits,             agency
contract audit closing                 •	 Accurately defining when DCAA audits are resolved
statements, and floor checks.
The EPA Office of the              All of these conditions contribute to the Administrator receiving inaccurate
Inspector General (OIG)            information on the status of resolution of DCAA audit reports. If audits are
previously requested, tracked,     resolved timely, EPA may be able to deobligate funds on Agency contracts,
and reported DCAA audits           thereby making funds available for other priorities.
until resolution. Once
resolved, EPA tracked the          What We Recommend
corrective actions until
implementation. On January 1,      We recommend that EPA develop and/or revise and implement policies and
2009, the OIG transferred its      procedures to ensure that unresolved DCAA audit reports are reported on a
requesting, tracking, and          semiannual basis to the EPA Administrator, to record management decision and
reporting responsibilities to      final action dates for DCAA audit reports, and to define the resolution point for
EPA.                               the various types of DCAA audits. We also recommend that EPA revise EPA
                                   Manual 2750 to reflect current Agency processes for requesting, tracking, and
                                   reporting unresolved DCAA reports that impact EPA contracts; reexamine audits
                                   that we identify herein as already resolved and provide the OIG an adequate
                                   management decision where appropriate; and develop a plan to accelerate audit
                                   resolution when not receiving adequate audit support from DCAA. EPA agreed
For further information, contact
our Office of Congressional
                                   with all of our recommendations and provided milestone dates for each
and Public Affairs at              recommendation.
(202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2012/
20111110-12-P-0071.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                             THE INSPECTOR GENERAL




                                       November 10, 2011

MEMORANDUM

SUBJECT:	 EPA Should Improve Policies and Procedures to Ensure
          Effective DCAA Audit Report Resolution
          Report No. 12-P-0071


FROM:	         Arthur A. Elkins, Jr.
               Inspector General

TO:	           Craig E. Hooks
               Assistant Administrator for Administration and Resources Management

               Barbara J. Bennett        

               Chief Financial Officer 



This is our report on the subject audit conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends.

Action Required

In responding to the draft report, the Agency provided a corrective action plan for addressing the
recommendations with milestone dates. Therefore, a response to the final report is not required.
The Agency should track corrective actions not implemented in the Management Audit Tracking
System. We have no objections to the further release of this report to the public. The report will
be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or Janet
Kasper at (312) 866-3059 or kasper.janet@epa.gov.
EPA Should Improve Policies and Procedures to                                                                            12-P-0071
Ensure Effective DCAA Audit Report Resolution




                                  Table of Contents 


Chapters
   1    Introduction ........................................................................................................      1


                Purpose .......................................................................................................    1     

                Background .................................................................................................       1     

                Noteworthy Achievements ...........................................................................                2     

                Scope and Methodology ..............................................................................               2     


   2    EPA Is Not Reporting Unresolved DCAA Audits to Its Administrator...........                                                4


                OMB Circular A-50 Requires Audit Follow-Up Reporting ............................                                  4

                Unresolved DCAA Audits Not Reported to the Administrator ......................                                    5

                OCFO Unaware of Reporting Requirements ...............................................                             5

                Conclusion ...................................................................................................     6

                Recommendations ......................................................................................             6

                Agency Response and OIG Evaluation .......................................................                         6


   3    EPA Is Not Recording Management Decisions ...............................................                                  7


                OMB Circular A-50 Requires Recording of Management 

                   Decision Dates .......................................................................................          7

                EPA Is Not Recording Management Decision Dates ..................................                                  7

                Lack of Procedures for New Tracking System Hindering Recording of

                   Management Decisions .........................................................................                  8

                Conclusion ...................................................................................................     8

                Recommendation ........................................................................................            9

                Agency Response and OIG Evaluation .......................................................                         9


   4	   EPA Should Improve Procedures for Resolving DCAA Audits When Not 

        Cognizant ............................................................................................................    10 


                OMB Guidance Requires Audits to Be Resolved Within 6 Months ................                                      10 

                EPA Could Have Resolved Some Audits With Improved Procedures.........                                             11 

                Impediments to Resolution of DCAA Audits ................................................                         12 

                Conservative Interpretation Causes Unnecessary Work .............................                                 12 

                Conclusion...................................................................................................     13     

                Recommendations ......................................................................................            13     

                Agency Response and OIG Evaluation .......................................................                        13 


   Status of Recommendations and Potential Monetary Benefits..............................                                        15 

EPA Should Improve Policies and Procedures to                                                                           12-P-0071
Ensure Effective DCAA Audit Report Resolution


Appendices
   A    Impact of Unresolved Audits.............................................................................                 16 


   B    Resolved Audits .................................................................................................        18 


   C    Agency Response to Draft Report....................................................................                      19 


   D    Distribution .........................................................................................................   22 

                                  Chapter 1

                                   Introduction
Purpose
            The U.S. Environmental Protection Agency (EPA), Office of Inspector General
            (OIG), conducted this audit to determine whether EPA has adequate internal
            controls for resolving Defense Contract Audit Agency (DCAA) audit reports, and
            whether EPA is timely resolving DCAA audit reports.

Background

            DCAA performs all contract audits for the U.S. Department of Defense and
            provides contract audit services to other government agencies when requested.
            For audits of contractors other than educational institutions and nonprofit
            organizations, DCAA is generally the responsible government audit agency. At
            the request of EPA’s Office of Administration and Resources Management,
            Office of Acquisition Management (OAM), DCAA performs several types of
            contract audits, including incurred cost audits, cost accounting standards audits,
            and internal control system audits. EPA also receives audit support from DCAA
            when another federal agency requests an audit of a contractor that also has EPA
            contracts.

            Prior to January 1, 2009, DCAA audits were requested through the OIG, and results
            were included in the OIG’s Semiannual Report to Congress. During this time, the
            OIG was responsible for reviewing Agency management decisions and tracking
            unresolved DCAA audits (audits without management decisions). EPA used its
            Management Audit Tracking System (MATS) to track the implementation of
            corrective actions from DCAA audits.

            On January 1, 2009, OAM assumed full responsibility for requesting and tracking
            DCAA audits. EPA’s Financial Analysis and Oversight Service Center now tracks
            audits with an Excel spreadsheet instead of MATS; according to EPA Manual
            2750, MATS is the tracking system for OIG-issued reports. Unresolved audits
            issued prior to January 1, 2009, are still tracked and reported through the OIG’s
            Semiannual Report to Congress. However, the Office of the Chief Financial
            Officer (OCFO), as the Agency follow-up coordinator, must now report
            unresolved DCAA audits issued after January 1, 2009, to the EPA Administrator.
            OAM is responsible for tracking final actions on all DCAA audit reports
            regardless of whether issued before or after January 1, 2009.

            In accordance with Office of Management and Budget (OMB) Circular A-50, all
            audit reports, including those conducted by other executive branch audit

12-P-0071                                                                                    1
            organizations such as DCAA, are to be resolved within 6 months after issuance of
            a final report. Resolution is the point at which the audit organization and agency
            management or contracting officials agree on action to be taken on reported
            findings and recommendations. The cognizant federal agency is responsible for
            resolving audit recommendations. The cognizant federal agency normally will be
            the agency with the largest dollar amount of negotiated contracts, including
            options. Audits that remain unresolved after 6 months are to be included in a
            semiannual report to the head of the cognizant agency.

Noteworthy Achievements
            Even though there are no regulations requiring the Agency to do so, EPA has
            continually tracked all DCAA audits that affect EPA contracts, even when it is not
            the cognizant agency. Tracking all audits that affect EPA contracts keeps the
            Agency aware of findings and recommendations for contractors with which it
            does business.

            Additionally, EPA generally resolved DCAA audits within the 6-month guideline
            when it was the cognizant agency. From October 2006 to December 2008, EPA
            was cognizant for 54 resolved audits. The average time to resolve these audits was
            117 days. From January 1, 2009, when OAM became responsible for requesting
            and tracking DCAA audits, to February 18, 2011, EPA has been cognizant for
            13 resolved audits. It took an average of 125 days to resolve those 13 audits.

Scope and Methodology
            We performed this audit from January to September 2011 in accordance with
            generally accepted government auditing standards, issued by the Comptroller
            General of the United States. Those standards require that we plan and perform
            the audit to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions based on our audit objectives. We believe that
            the evidence obtained provides a reasonable basis for our findings and
            conclusions based on our audit objectives.

            To determine whether EPA is recording resolution dates, we indentified and
            reviewed 36 audits from the audit program manager’s tracking spreadsheet that
            had final actions taken and that were processed after January 1, 2009. We
            reviewed key data fields from the audit program manager’s tracking spreadsheet
            to ensure resolution dates were correct for each audit in the sample.

            To determine whether EPA has adequate internal controls for resolving DCAA
            audits, we reviewed OMB Circular A-50; applicable Federal Acquisition
            Regulations sections; EPA Manual 2750, EPA’s Audit Management Process; and
            EPA’s policies and procedures relating to resolving audits. We interviewed staff
            from EPA’s Financial Analysis and Oversight Service Center, including the audit


12-P-0071                                                                                    2
            program manager for DCAA monitoring; the financial administrative contracting
            officers (ACOs); and staff from the DCAA monitoring team within OAM.

            We conducted tests of internal controls to verify adherence to written guidance
            and procedures. These tests included examining whether EPA is:

               •	 Tracking audits with trackable issues
               •	 Tracking issues relevant to EPA contracts when another agency is 

                  cognizant over the contractor 

               •	 Tracking all DCAA audits received in the audit program manager’s
                  spreadsheet
               •	 Reporting audits unresolved after 6 months to the EPA Administrator
               •	 Closing out audit reports with proper documentation
               •	 Recording resolution dates

            To determine whether EPA is timely resolving DCAA audits, we examined dates
            obtained from MATS, OAM’s DCAA monitoring application, and the audit
            program manager’s Excel tracking spreadsheet. These dates were used to
            determine the average time it took EPA to resolve DCAA audits for two periods.
            The first period was from October 1, 2006, to December 31, 2008. The second
            period was from January 1, 2009, to February 18, 2011. We identified 38 DCAA
            audits that did not have a management decision (unresolved) within the 6-month
            time frame as of March 31, 2011. We selected a judgmental sample of 24 of the
            38 audits. The sample was chosen to ensure that a variety of types of audits were
            reviewed, but emphasis was placed on incurred cost audits with questioned costs.
            We included in the sample 17 audits issued prior to January 1, 2009, and 7 issued
            subsequent to January 1, 2009. We reviewed the case file and contacted
            contracting officers from the cognizant federal agency for each audit to determine
            whether a management decision had been made.

            We reviewed documents EPA completed in compliance with the Federal
            Managers’ Financial Integrity Act, including the Office of Administration and
            Resources Management’s Fiscal Year 2010 Federal Managers’ Financial Integrity
            Act Assurance Letter. EPA did not identify internal control weaknesses directly
            related to the audit’s objectives.

            Prior Audit Coverage

            EPA OIG Report No. 10-P-0075, EPA Does Not Always Receive Adjustment
            Vouchers from Contractors, issued March 8, 2010, was the only previous audit
            related to EPA’s resolution of DCAA audits. However, the recommendations
            cited in that report were not relevant to the objectives of this audit.




12-P-0071                                                                                     3
                                  Chapter 2

                EPA Is Not Reporting Unresolved 

                DCAA Audits to Its Administrator

            EPA is not reporting unresolved DCAA audit reports (audit reports without
            management decisions) to the EPA Administrator on a semiannual basis as OMB
            Circular A-50 requires. We identified two unresolved DCAA audit reports that
            were past the required 6-month time frame for resolution that were not reported to
            the Administrator, and for which EPA was cognizant. OMB Circular A-50
            requires that inspectors general or other executive branch organization audit
            reports not resolved within 6 months be reported to the agency head on a
            semiannual basis. EPA staff were unaware that they were required to report
            unresolved other executive branch audit organization reports to the Administrator
            because EPA Manual 2750 does not address these reports. As a result, EPA is not
            in compliance with OMB Circular A-50, and the Administrator cannot fully
            evaluate management’s corrective actions on resolving findings and
            recommendations, which relate to improving the effectiveness and efficiency of
            contractor operations.

OMB Circular A-50 Requires Audit Follow-Up Reporting
            OMB Circular A-50 requires the audit follow-up official to provide the agency
            head a status report on all unresolved audits on a semiannual basis. Specifically,
            section 8a(8) of the circular requires that the audit follow-up coordinator provide
            semiannual reports to the agency head on the status of all unresolved audit reports
            over 6 months old, the reasons therefore, and a timetable for their resolution; the
            number of reports or recommendations resolved during the period; the amount of
            disallowed costs; and collections, offsets, write-offs, demands for payment, and
            other monetary benefits resulting from audits. It further states that reports should
            include an update on the status of previously reported unresolved audits. The
            circular defines resolution under section 6b(1) as the point at which the audit
            organization and agency management or contracting officials agree on action to
            be taken on reported findings and recommendations.

            EPA Manual 2750 implements the reporting requirements that direct agency
            heads to report to Congress semiannually on the status of follow-up on OIG audit
            report recommendations. EPA Manual 2750, chapter 11, section 8, requires the
            OIG to report to Congress on unresolved audit reports and requires the Agency to
            report to the Administrator on the status of completion of final corrective actions.




12-P-0071                                                                                    4
Unresolved DCAA Audits Not Reported to the Administrator
            EPA is not reporting unresolved DCAA audit reports to the EPA Administrator on
            a semiannual basis as OMB Circular A-50 requires. As of January 1, 2009, the
            OIG no longer includes new DCAA audits in its semiannual report because it no
            longer issues DCAA audit reports. Instead, DCAA issues its audit reports directly
            to OAM. Therefore, the reporting responsibilities for unresolved DCAA audit
            reports transferred to EPA’s OCFO because OCFO is the Agency’s audit follow-
            up coordinator. According to OCFO staff, the audit follow-up coordinator is
            responsible for reporting unresolved audit reports.

            We identified two unresolved DCAA audit reports for which EPA was cognizant
            and resolution exceeded the 6-month time frame. Accordingly, these two
            unresolved audit reports should have been reported to the EPA Administrator for
            the semiannual reporting period ended September 30, 2010, and one of them also
            should have been reported in the semiannual reporting period ended March 31,
            2011. OCFO staff confirmed that they have not been reporting unresolved DCAA
            audit reports to the EPA Administrator on a semiannual basis. The unreported
            audit reports contained the following findings:

               •	 The first unresolved audit report was on a contractor’s postaward
                  accounting system. DCAA’s opinion was that the accounting system was
                  inadequate for accumulating and billing costs under government contracts.
                  DCAA issued the report on October 23, 2009. In accordance with OMB
                  Circular A-50, a management decision, or resolution, was required on or
                  before April 21, 2010. OAM resolved the recommendations in the report
                  on January 19, 2011.

               •	 The second unresolved audit report was on a contractor’s fiscal year 2007
                  incurred costs. DCAA questioned $4,689 of direct costs and $460,129 of
                  indirect costs. DCAA issued the report on February 26, 2010, and OAM
                  resolved it on April 12, 2011. In accordance with OMB Circular A-50, a
                  management decision, or resolution, was required on or before August 25,
                  2010.

OCFO Unaware of Reporting Requirements
            OCFO staff were unaware that OMB Circular A-50 required EPA to report
            unresolved other executive branch audit organization reports, such as those by
            DCAA, to the EPA Administrator. EPA is to report on the status of audits DCAA
            issues when it is the cognizant federal agency. OCFO staff use EPA Manual 2750,
            the Agency’s implementation of OMB Circular A-50, as the primary criteria for
            audit follow-up. Although EPA Manual 2750 addresses OIG audit report
            recommendations, it does not address other executive branch audit organization
            reports, nor does it address procedures for handling such reports when issued


12-P-0071                                                                                5
            directly to EPA. Accordingly, EPA Manual 2750 does not fully reflect OMB
            Circular A-50’s requirements.

Conclusion
            Because EPA is not reporting on a semiannual basis unresolved DCAA audits that
            exceed the 6-month time frame for resolution, the Agency is not in compliance
            with OMB Circular A-50, and the EPA Administrator cannot fully evaluate
            compliance with time frames for reaching a management decision or the
            implementation of corrective actions. Oversight of actions taken in response to
            findings and recommendations contributes to improving the effectiveness and
            efficiency of government operations.

Recommendations
            We recommend that the Chief Financial Officer, in conjunction with the Assistant
            Administrator for Administration and Resources Management:

                   1. 	 Develop and implement policies and procedures to ensure that
                        unresolved DCAA audit reports are reported on a semiannual basis to
                        the EPA Administrator in accordance with OMB Circular A-50.

                   2. 	 Revise EPA Manual 2750 to reflect current Agency processes used
                        when requesting, tracking, and reporting unresolved DCAA reports
                        that impact EPA contracts.

Agency Response and OIG Evaluation

            EPA concurred with our recommendations and, with the fourth quarter of fiscal
            year 2011, will begin providing a listing of unresolved DCAA audits that have not
            been resolved within 180 days to the Administrator on a quarterly basis. EPA will
            also report the status of unresolved DCAA audit reports in the Annual Financial
            Report to the Administrator. EPA is in the process of updating EPA Manual 2750
            to reflect current Agency processes when requesting, tracking, and reporting
            unresolved DCAA reports. EPA anticipates completing the revision of EPA
            Manual 2750 by the end of fiscal year 2012. In the interim, EPA will develop
            guidance documenting current Agency processes and will ensure that the revision
            of EPA Manual 2750 incorporates the updated guidance. The OIG concurs with
            EPA’s proposed actions and milestone dates to address both the
            recommendations. EPA’s complete response is in appendix C.




12-P-0071                                                                                  6
                                  Chapter 3

       EPA Is Not Recording Management Decisions
            EPA is not recording management decision dates for DCAA audit reports issued
            after January 1, 2009, in accordance with OMB Circular A-50 and EPA Manual
            2750. Both require the Agency to enter report tracking data, including
            management decision dates, in the Agency tracking system. Thirty-three out of 36
            closed audits sampled did not have a management decision date recorded in the
            OAM tracking system. EPA has not established guidance or standard operating
            procedures for entering management decisions or final action dates for DCAA
            audits in the new tracking system. As a result, management cannot fully evaluate
            the time frames for reaching a management decision or the implementation of
            corrective actions. In addition, not recording management decisions increases the
            Agency’s risk of inaccurate reporting to the EPA Administrator.

OMB Circular A-50 Requires Recording of Management Decision
Dates
            OMB Circular A-50 states that the audit follow-up official has personal
            responsibility for ensuring that systems of audit follow-up, resolution, and
            corrective action are documented and in place. The circular requires that follow-
            up systems maintain accurate records of the status of audit reports or
            recommendations through the entire process of resolution and corrective action. It
            further requires that follow-up systems assure that resolution actions are
            consistent with law, regulation, and Administration policy.

            For contract audits, EPA Manual 2750 requires the Agency to enter data in its
            tracking system, including management decision dates, final action dates, and
            narrative status fields. The manual defines resolution as an approved management
            decision and states that a management decision must address each of the findings
            or recommendations in a report. Final action, as defined in EPA Manual 2750, is
            the completion and documentation of all actions specified in the management
            decision. For the Agency to consider an audit closed, the audit report must have a
            management decision that addresses the audit’s recommendations, and all
            corrective actions identified in the management decision must be implemented.

EPA Is Not Recording Management Decision Dates

            EPA is not recording management decision dates for resolved DCAA audit
            reports issued after January 1, 2009. OAM created an Excel spreadsheet to track
            resolved and unresolved DCAA audit reports. We found that 33 of the 36 closed
            audits did not have a management decision date recorded in OAM’s tracking

12-P-0071                                                                                  7
            system. The audit program manager stated that the following procedures were
            being used to record management decision dates:

               •	 If the resolution occurs in less than 180 days and corrective actions have
                  been implemented, the Final Action Date field represents both the
                  management decision and final action dates.

               •	 If resolution exceeds 180 days, OAM records the management decision
                  date in the Final Determination Letter Date field, and records the date
                  corrective actions have been implemented in the Final Action Date field.

            However, EPA did not follow these procedures, as 33 of the 36 closed audits did
            not have a management decision date recorded.

Lack of Procedures for New Tracking System Hindering Recording of
Management Decisions
            While EPA Manual 2750 requires EPA to record management decision dates in
            MATS, the manual only addresses OIG audit reports. After January 1, 2009,
            DCAA reports were provided directly to EPA, were no longer assigned an OIG
            report number, and were no longer tracked in MATS. OAM created an Excel
            spreadsheet to track DCAA audits after this date; however, it did not create formal
            written policies and procedures related to the OAM tracking system. Further, the
            process that was being used was not compliant with OMB Circular A-50 or EPA
            Manual 2750’s definitions and procedures for resolution in that regardless of the
            timing and who conducted the audit, a management decision date must always be
            recorded.

Conclusion
            Because EPA is not recording management decision dates for DCAA audits, the
            Agency is not in compliance with OMB Circular A-50 or EPA Manual 2750. If
            management decisions are not recorded correctly, management cannot fully
            evaluate compliance with time frames for reaching a management decision and
            the implementation of corrective actions. In addition, not recording management
            decisions increases the Agency’s risk of inaccurate reporting to the EPA
            Administrator.




12-P-0071                                                                                  8
Recommendation
            We recommend that the Assistant Administrator for Administration and
            Resources Management:

                   3. 	 Develop and implement written policies and procedures to record
                        management decision and final action dates for DCAA audit reports in
                        OAM’s tracking system.

Agency Response and OIG Evaluation

            EPA concurred with our recommendation and will implement standard operating
            procedures to record management decision and final action dates for DCAA audit
            reports in OAM’s tracking system by January 31, 2012. The OIG concurs with
            EPA’s proposed actions and the milestone date provided to address the
            recommendation. EPA’s complete response is in appendix C.




12-P-0071                                                                                9
                                           Chapter 4
       EPA Should Improve Procedures for Resolving
            DCAA Audits When Not Cognizant
                 EPA is not always able to resolve DCAA audits in a timely manner when it is not
                 the cognizant agency. In some cases, EPA could resolve the audits if it obtained
                 the documentation from the cognizant agency. In other cases, EPA is waiting for
                 the cognizant agency to take action. OMB Circular A-50 and EPA Manual 2750
                 require that agencies resolve audits within 6 months of issuing a final report.
                 However, OAM conservatively interprets both OMB Circular A-50 and EPA
                 Manual 2750 when resolving DCAA audit reports. The Agency waits for final
                 action, or in some cases, for verification of final action, to be completed before
                 considering an audit to be resolved, instead of considering it resolved after a
                 management decision has been made. Therefore, EPA is erroneously holding
                 DCAA audits in an unresolved status, causing unnecessary tracking and follow-up
                 work.1

OMB Guidance Requires Audits to Be Resolved Within 6 Months
                 OMB Circular A-50 requires that agencies resolve audit reports within a
                 maximum of 6 months after issuance of a final report. The circular defines
                 resolution as the point at which the audit organization and agency management or
                 contracting officials agree on action to be taken on reported findings and
                 recommendations. EPA Manual 2750 states that resolution takes the form of an
                 approved management decision. A management decision must:

                          1.	 Address each of the findings or recommendations in the report
                          2.	 Set forth appropriate actions including milestone dates for completing
                              the corrective actions
                          3.	 Provide references to supporting documentation, including legal basis
                              or precedent, if the action official’s position differs from the auditor’s
                              position
                          4.	 Accurately summarize the total disallowed cost

                 The cognizant agency is responsible for negotiating with contractors to resolve
                 DCAA audits. The cognizant agency will normally be the agency with the largest
                 dollar amount of negotiated contracts, including options.




1
 In some cases, EPA may need to track implementation of the corrective actions after it makes a management
decision. However, EPA has not been separately tracking resolution and corrective action for DCAA audits, and
continued to track corrective actions after they were implemented.

12-P-0071                                                                                                       10
EPA Could Have Resolved Some Audits With Improved Procedures
                 EPA is not always considering DCAA audits to be resolved within the time frame
                 identified in OMB Circular A-50, even when the cognizant agency has resolved
                 an audit. We selected a sample of 24 DCAA audit reports that were identified as
                 being unresolved for over 6 months as of March 31, 2011. EPA was only
                 cognizant for one contractor, which accounted for one unresolved audit in the
                 sample.

                 We determined that EPA could have considered 8 of the 24 DCAA audits
                 resolved if OAM had obtained proper documentation from the cognizant
                 agencies. In the cases of systems audits, the documentation we obtained from the
                 cognizant ACOs details the contractor’s corrective action to be taken or already
                 taken in agreement with the contracting officer. For incurred cost audits, we
                 obtained contracting-officer-negotiated rate agreements. These documents meet
                 the definition of resolution as established in OMB Circular A-50.2

                 The remaining 16 audits have not been resolved for a number of reasons. The
                 primary reason, as shown in table 1, is that EPA is waiting for the cognizant
                 agency to negotiate with the contractor to resolve the audit. Only the cognizant
                 agency can negotiate with the contractor. Four audits appear to have had action
                 taken on them, or DCAA performed a follow-up audit that superseded the
                 original. However, we were unable to obtain sufficient documentation from the
                 cognizant agencies to consider these audits resolved. As of March 31, 2011, all
                 16 audits remained unresolved for more than 1 year. In one case, an audit
                 remained unresolved for over 6 years.

                 Table 1: Reasons audits in our sample remain unresolved
                  Reason unresolved                                                         Number
                  Awaiting cognizant agency negotiations                                        6
                  Cognizant agency stated audit was resolved but was unable to
                                                                                                4
                  provide supporting documentation
                  Cognizant agency awaiting additional DCAA audit work                          4
                  Cognizant agency unaware whether corrective action was taken                  2
                 Source: OIG analysis.

                 The 16 audits represent a combined $3,236,013 in EPA’s share of questioned
                 costs from the DCAA reports. Individual questioned costs are broken down by
                 audit in appendix A. Six of the audits were system audits and do not contain
                 questioned costs. However, the DCAA report did note deficiencies with the
                 contractor’s systems along with the impact of those deficiencies.



2
 After discussions between the OIG and the Agency, EPA took action to resolve the audits. See appendix C for
details.

12-P-0071                                                                                                      11
Impediments to Resolution of DCAA Audits

            Conservative Interpretation of Resolution Guidance

            EPA’s practice for determining resolution of DCAA audit reports is based on a
            conservative interpretation of OMB Circular A-50 and EPA Manual 2750. OMB
            Circular A-50 states that resolution is achieved when an agreement is reached on
            actions that the contractor needs to take in response to an audit report’s findings.
            EPA Manual 2750 contains a similar definition. However, we determined from
            interviews with the Financial Analysis and Oversight Service Center audit
            program manager, and from documentation in the files, that EPA considers
            resolution of some DCAA audits, such as systems audits, to be achieved only
            after DCAA performs a follow-up audit verifying that deficiencies have been
            corrected. This practice goes beyond the criteria laid out in OMB Circular A-50
            and EPA Manual 2750.

            This conservative interpretation partly stems from the way the OIG closed out
            audits prior to January 1, 2009. When a management decision had been made for
            an audit, OAM would send the decision to the OIG for approval. The OIG did not
            consider an audit resolved until DCAA had conducted a follow-up to verify
            corrective actions had been taken. The audit program manager stated that the
            model of how to handle closing DCAA audits has not changed since OAM took
            over the process in January 2009.

            Lack of Support from DCAA Causes Delays

            In some instances, lack of support from DCAA in conducting supplemental work
            caused delays in DCAA audit report resolution. DCAA supplements audit reports
            issued when it becomes aware of information which, had it been known at the
            time the report was issued, would have affected the report’s conclusions. DCAA
            has had a backlog of audits for years and is understaffed in some areas where
            supplemental work needs to be done. For example, DCAA requested a chance to
            bolster its original position for an audit under the cognizance of the Defense
            Contract Management Agency (DCMA). However, according to DCMA staff,
            DCAA keeps extending follow-up work due to staffing shortages. We identified
            three other instances in which DCAA caused a delay in the resolution of the
            audits.

Conservative Interpretation Causes Unnecessary Work
            As a result of the conservative interpretation of OMB Circular A-50 and EPA
            Manual 2750, EPA is unnecessarily holding some DCAA audits in an unresolved
            status, which leads to unnecessary tracking and follow-up work. For example, we
            determined that six audits we reviewed have been resolved with final action
            implemented. In most cases, these audits could have been closed out prior to the
            start of this audit. Instead, the audits were kept unresolved until the follow-up

12-P-0071                                                                                     12
            audit was performed to verify implementation and reported to the EPA
            Administrator on a semiannual basis. Additionally, the questioned costs
            associated with the audits are also not being addressed. For the audits we
            reviewed, the questioned costs involved $3,236,013.

Conclusion
            Revising EPA’s policies and procedures for resolving DCAA audits could reduce
            the amount of time and resources spent on tracking and resolving DCAA audit
            reports. OAM’s conservative interpretation of OMB Circular A-50 and EPA
            Manual 2750 has led to audits being considered unresolved in EPA’s tracking
            systems past the point at which the cognizant agency has actually resolved the
            audit. If audits are resolved timely, EPA may be able to deobligate funds on
            Agency contracts, thereby making funds available for other priorities.

Recommendations
            We recommend that the Chief Financial Officer, in conjunction with the Assistant
            Administrator for Administration and Resources Management:

                   4. 	 Revise and implement policies and procedures to define the resolution
                        point for the various types of DCAA audits (including, but not limited
                        to, systems, incurred cost, and cost accounting standards) consistent
                        with OMB Circular A-50.

            We recommend that the Assistant Administrator for Administration and
            Resources Management:

                   5. 	 Reexamine audits that the OIG identified in this report as already
                        being resolved and, where appropriate, provide the OIG an adequate
                        management decision in accordance with EPA Manual 2750. In cases
                        where OAM is responsible, management decisions should be recorded
                        and documented in OAM files.

                   6. 	 Develop and implement a plan for alternative actions to accelerate the
                        resolution and implementation process for unresolved audits when not
                        receiving adequate audit support from DCAA.

Agency Response and OIG Evaluation

            EPA concurred with our recommendations and will implement revised standard
            operating procedures that define the resolution point for the various types of
            DCAA audits by January 31, 2012. EPA also reexamined the audits listed in
            appendix B and took action necessary to resolve the audits in its tracking system.
            Additionally, EPA plans to use CPA firms to provide targeted audit services for
            situations in which DCAA audit support has not been adequate. The OIG concurs
12-P-0071                                                                                  13
            with EPA’s proposed actions and milestone dates to address these
            recommendations. EPA’s complete response is in appendix C.




12-P-0071                                                                      14
                            Status of Recommendations and
                              Potential Monetary Benefits

                                                                                                                           POTENTIAL MONETARY
                                               RECOMMENDATIONS                                                              BENEFITS (in $000s)

                                                                                                               Planned
 Rec.   Page                                                                                                  Completion   Claimed    Agreed-To
 No.     No.                         Subject                          Status1        Action Official             Date      Amount      Amount

  1      6     Develop and implement policies and procedures to         O       Chief Financial Officer, in   11/15/2011
               ensure that unresolved DCAA audit reports are                    conjunction with Assistant
               reported on a semiannual basis to the EPA                            Administrator for
               Administrator in accordance with OMB Circular                       Administration and
               A-50.                                                             Resources Management

  2      6     Revise EPA Manual 2750 to reflect current Agency         O       Chief Financial Officer, in   09/30/2012
               processes used when requesting, tracking, and                    conjunction with Assistant
               reporting unresolved DCAA reports that impact                        Administrator for
               EPA contracts.                                                      Administration and
                                                                                 Resources Management

  3      9     Develop and implement written policies and               O       Assistant Administrator for   01/31/2012
               procedures to record management decision and                        Administration and
               final action dates for DCAA audit reports in OAM’s                Resources Management
               tracking system.

  4      13    Revise and implement policies and procedures to          O       Chief Financial Officer, in   01/31/2012
               define the resolution point for the various types of             conjunction with Assistant
               DCAA audits (including, but not limited to, systems,                 Administrator for
               incurred cost, and cost accounting standards)                       Administration and
               consistent with OMB Circular A-50.                                Resources Management

  5      13    Reexamine audits that the OIG has identified in this     C       Assistant Administrator for   09/15/2011
               audit report as already being resolved and, where                   Administration and
               appropriate, provide the OIG an adequate                         Resources Management
               management decision in accordance with EPA
               Manual 2750. In cases where OAM is responsible,
               management decisions should be recorded and
               documented in OAM files.

  6      13    Develop and implement a plan for alternative             O       Assistant Administrator for   01/31/2012
               actions to accelerate the resolution and                            Administration and
               implementation process for unresolved audits when                 Resources Management
               not receiving adequate audit support from DCAA.




         O = recommendation is open with agreed-to corrective actions pending
         C = recommendation is closed with all agreed-to actions completed
         U = recommendation is unresolved with resolution efforts in progress




12-P-0071                                                                                                                                   15
                                                                                                    Appendix A

                            Impact of Unresolved Audits
 Table A-1: Unresolved audits and their impact, 2006–2011
                     Audit report                                               Impact
   1.   2006-4-00120                                   The deficiencies listed could adversely affect the
                                                       organization’s ability to record, process, summarize, and
        National Academy of Sciences—2006 IT           report direct and indirect costs consistent with applicable
        System General Internal Controls               government contract laws and regulations.
   2.   2006-4-00165                                   The deficiencies noted in the report could adversely
        National Academy of Sciences—Review of         affect the organization’s ability to record, process,
        Internal Controls for the Indirect and Other   summarize, and report indirect and other direct costs in
        Direct Costs System                            a manner consistent with applicable government
                                                       contract laws and regulations.
                                                       The deficiencies noted in the report could adversely
   3.   2006-4-00169                                   affect the organization’s ability to record, process,
        National Academy of Sciences—Labor             summarize, and report labor costs in a manner
        Accounting System Internal Controls            consistent with applicable government contract laws and
                                                       regulations.
   4.   2007-1-00016
                                                       $1,328,189 in direct costs was questioned for EPA
        URS—URSGI Incurred Costs for Fiscal Year       contract 68-W9-8225.
        Ending November 2, 2001
   5.   2007-1-00061
        Lockheed Martin Services—Incurred Costs        EPA’s share of the questioned direct and indirect costs
        for Calendar Year Ending December 31,          is $694,178.
        2004
   6.   2007-1-00079
        Science Applications International             EPA’s share of the questioned direct and indirect costs
        Corporation—Direct and Indirect Cost for       is $119,696.
        Contractor’s Fiscal Year (CFY) 2005
   7.   2007-1-00080
                                                       EPA’s share of the questioned indirect questioned costs
        Lockheed Martin Services—2005 Incurred         is $133,069.
        Costs
   8.   2007-4-00058
        Science Applications International             The deficiency listed could have a material impact on
        Corporation—Report on Evaluation of            the accuracy of labor data reported in the contractor’s
        Contractor Fiscal Year (CFY) 2007 Labor        systems. This could result in distorted labor costs
        Timekeeping Practices and Floorcheck           reported in public vouchers, progress payments, and
        (MAAR 6)                                       other costs.


   9.   2007-4-00080                                   Deficiencies not corrected were long-term strategic
                                                       plans not utilized, budget approval process not well
        National Academy of Sciences—National          documented, and policies and procedures not in place
        Academy of Sciences—Follow-up Audit for        for management to evaluate variances between budget
        Budget and Planning System Internal Control    and actual performance.
   10. 2008-1-00114
                                                       EPA’s share of questioned indirect costs is $197,869
       Weston Solutions—Incurred Cost for Fiscal       over 11 contracts.
       Year Ended December 31, 2004
   11. 2008-1-00130
                                                       EPA’s share of questioned costs related to the Package
       Washington Group—International—1999             Policy Insurance Costs is $10,393.
       Incurred Cost


12-P-0071                                                                                                            16
   12. 2008-1-00131
                                                     EPA’s share of questioned costs related to the Package
       Washington Group—WGI CFY 2001 Incurred        Policy Insurance Costs is $6,126.
       Costs

   13. 2008-4-00002                                  The deficiencies noted in the report could adversely
                                                     affect the organization’s ability to record, process,
       Science Applications International            summarize, and report compensation in a manner
       Corporation—Follow-Up Compensation            consistent with applicable government contract laws and
       System Internal Controls                      regulations.
   14. 2009-1-00034
                                                     EPA’s share of questioned direct and indirect costs is
       Lockheed Martin Services—Incurred Costs
                                                     $710,170.
       Calendar Year Ending December 31, 2006
   15. 2009-112384                                   Questioned direct costs resolved. There were no
       Shaw Environmental and Infrastructure—        questioned indirect costs related to EPA contracts, but a
       Incurred Costs for Fiscal Year 2006           rate agreement has not been negotiated.
   16. 2011-113643
       Booz Allen Hamilton—Independent Audit of      Indirect rates are not acceptable and $36,323 in direct
       Booz Allen Hamilton U.S. Consulting (BAH)’s   costs related to EPA contracts was questioned.
       Incurred Costs for Fiscal Year Ending
       March 31, 2007
 Source: OIG analysis of DCAA audit reports.




12-P-0071                                                                                                        17
                                                                                              Appendix B

                                       Resolved Audits
Table B-1: DCAA audit reports for which we obtained resolution documentation during the
course of this audit
 Report no.       Report title                                           Basis for OIG decision
                  Lockheed—Incurred Costs Calendar Year Ending           Obtained price negotiation
 2004-1-00099
                  December 31, 2002                                      memorandum from DCMA ACO
                                                                         Obtained Final Determination
                  MACTEC—Noncompliance with Cost Accounting
 2008-4-00208                                                            Letter from DCMA ACO on
                  Standard (CAS) 409
                                                                         noncompliance
                  Tetra Tech—Information Technology General Internal     Obtained resolution memorandum
 2008-4-00308
                  Controls                                               from DCMA ACO
                                                                         Obtained resolution memorandum
 2009-112344      CH2M Hill—Purchasing System Internal Controls
                                                                         from DCMA ACO
                  SRA—Noncompliance with Cost Accounting Standard        Obtained Final Determination
 2010-1-12796     420, Accounting for Independent Research and           Letter from DCMA ACO on
                  Development and Bid and Proposal Costs                 noncompliance
                                                                         Obtained Final Indirect Cost Rate
 2010-113036      Northbridge—FY 2007 Incurred Costs
                                                                         Agreement from EPA ACO
                  Black and Veatch—Contractor’s Purchase Existence and   Obtained resolution memorandum
 2010-113289
                  Consumption Practices                                  from DCMA ACO
                                                                         Follow-up audit issued by DCAA
 2010-312713      AECOM—Assist Audit Floor Check                         stated that there were no
                                                                         deficiencies
Source: OIG analysis of DCAA audit reports.




12-P-0071                                                                                                    18
                                                                                  Appendix C

                  Agency Response to Draft Report
                                       October 17, 2011


MEMORANDUM

SUBJECT:      Response to Draft Office of Inspector General Audit Report, Project
              No. OA-FY11-0064: EPA Should Improve Policies and Procedures to Ensure
              Effective DCAA Audit Report Resolution

FROM:         Barbara J. Bennett, Chief Financial Officer \s\
              Office of the Chief Financial Officer

              Craig E. Hooks, Assistant Administrator \s\
              Office of Administration and Resources Management

TO:           Melissa M. Heist, Assistant Inspector General for Audits
              Office of Inspector General


Thank you for the opportunity to comment on the subject OIG draft Audit Report (Report) dated
September 9, 2011.

The expressed purpose of the audit was to determine whether the EPA has adequate internal
controls for resolving Defense Contract Audit Agency audit reports, and whether the EPA is
timely resolving DCAA audit reports. We generally agree with the Report’s findings and overall
recommendation for the EPA to improve its policies and procedures to ensure timely and
accurate tracking and reporting of the resolution of DCAA reports.

Our specific comments on the Report’s findings and recommendations are provided below:

Comments on the Report’s Findings and Recommendations

We recommend that the Chief Financial Officer, in conjunction with the Assistant Administrator
for Administration and Resources Management:

1.	 Develop and implement policies and procedures to ensure that unresolved DCAA audit
    reports are reported on a semiannual basis to the EPA administrator in accordance with
    OMB Circular A-50

Response: We concur with the recommendation. OCFO prepares quarterly reports for the
Administrator and senior managers on the agency’s audit follow-up activities. These reports

12-P-0071                                                                                     19
present the status of Management Decisions and Corrective Actions on active OIG audits. To
comply with the reporting requirements of OMB Circular A-50, effective Quarter 4 FY 2011,
OCFO will include a listing of DCAA audits for which the EPA is the cognizant agency that
have not reached resolution within 180 days of issuance. OCFO will also include this
information in EPA’s annual Agency Financial Report.

2.	 Revise EPA Manual 2750 to reflect current agency processes used when requesting,
    tracking, and reporting unresolved DCAA reports that impact EPA contracts.

Response: We concur with the recommendation. OCFO is leading an agency workgroup to
update the EPA Order 2750. The updated Order is anticipated to be issued by the end of FY
2012. In the interim, OARM will develop guidance documenting current agency processes.
OCFO will ensure that the revised Manual 2750 incorporates the updated guidance.

We recommend that the Assistant Administrator for Administration and Resources Management:

3.	 Develop and implement written policies and procedures to record management decision and
    final action dates for DCAA audit reports in OAM’s tracking system.

Response: We concur with the recommendation. OAM will develop and implement standard
operating procedures to record management decision and final action dates for DCAA audit
reports in OAM’s tracking system by January 31, 2012.

We recommend that the Chief Financial Officer, in conjunction with the Assistant Administrator
for Administration and Resources Management:

4.	 Revise and implement policies and procedures to define the resolution point for the various
    types of DCAA audits (e.g., systems, incurred cost, cost accounting standards, etc.)
    consistent with OMB Circular A-50.

Response: OARM and OCFO concur with the recommendation. By January 31, 2012, OAM
will revise and implement standard operating procedures that are consistent with OMB Circular
A-50 so that the resolution date becomes the date that agreement is reached on actions that the
contractor needs to take in response to an audit report’s findings.

We recommend that the Assistant Administrator for Administration and Resources Management:

5.	 Reexamine audits that the OIG identified in the report as already being resolved and that are
    listed in appendix B, and where appropriate, provide the OIG an adequate management
    decision in accordance with EPA Manual 2750. In cases where OAM is responsible,
    management decisions should be recorded and documented in OAM files.

Response: We concur with the recommendation. Of the eight audits listed in Appendix B, three
of the audits originally issued by OIG and thus tracked in MATS were closed by the OIG on
September 15, 2011. The five remaining audits OAM requested DCAA to perform were closed
by OAM by August 4, 2011.

12-P-0071                                                                                     20
6.	 Develop and implement a plan for alternative actions to accelerate the resolution and
    implementation process for unresolved audits when not receiving adequate audit support
    from DCAA.

Response: We concur with the recommendation. For those contractors for which the EPA is the
cognizant agency, OAM is preparing to award a contract by January 31, 2012, for CPA firms to
provide targeted audit services in situations where DCAA audit support has not been adequate.

Thank you again for the opportunity to comment on the report. If you have any questions
concerning this matter, please contact either of us directly.

cc:    	 anci Gelb
       N
       Maryann Froehlich
       John Bashista
       Kathy O’Brien
       Janet Kasper
       Deborah Rutherford
       Barbara Freggens
       James Pecot
       Bernadette Dunn




12-P-0071                                                                                    21
                                                                               Appendix D

                                    Distribution
Office of the Administrator
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
Assistant Administrator for Administration and Resources Management
Director, Office of Acquisition Management, Office of Administration and Resources
   Management
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Acquisition Management




12-P-0071                                                                             22
